        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Management of the Plateau
Remediation Contract




OAS-L-13-03                     December 2012
                                 Department of Energy
                                     Washington, DC 20585

                                      December 21, 2012


MEMORANDUM FOR THE DEPUTY ASSISTANT SECRETARY FOR ACQUISITION AND
               PROJECT MANAGEMENT




FROM:                    George W. Collard
                         Assistant Inspector General
                            for Audits
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Management of the Plateau
                         Remediation Contract"

BACKGROUND

The Department of Energy's Richland Operations Office (Richland) awarded a contract, effective
October 1, 2008, to CH2M HILL Plateau Remediation Company (CHPRC) to remediate select
portions of the Hanford Site's Central Plateau. The contract, which could be extended for a
maximum of 10 years, currently has a contract cost of $5.6 billion for authorized work. The
Plateau Remediation Contract work scope includes remediation of the Plutonium Finishing Plant
and a number of other environmentally degraded areas related to nuclear weapons production.

The Department administers its procurements, in part, through a contract change proposal and
approval process in accordance with the Federal Acquisition Regulation (FAR). As part of this
process, the Department reviews, negotiates and approves changes in the work scope from
contractor change proposals. The FAR requires that change proposals contain sufficient cost
information to allow independent audits to determine if the change is ready for negotiation and
incorporation into the contract. Within 180 days of the contractor starting work, the Department
is to identify and resolve differences between the work scope specified in the original Request
for Proposal and the work scope existing at the time the contract becomes effective. Successful
completion of this process allows for the formal approval of the Performance Measurement
Baseline (PMB), a project management tool that permits the Department to compare actual
contractor cost and schedule performance against estimates to the complete contract work scope.

We received an allegation that CHPRC had not met a number of contract terms and conditions
and that the Department had not corrected performance issues. The complainant noted that
CHPRC had not provided change proposals and performance baselines that met contract and
FAR requirements. As a result of the complaint and because of the significance of this contract,
we initiated this audit to determine whether the Department had adequately managed changes to
the Plateau Remediation Contract.

CONCLUSIONS AND OBSERVATIONS

Our review largely substantiated the allegations. We found that CHPRC had not always met
contract and FAR requirements for submitting timely and/or well supported contract change
proposals. Additionally, the Department had not always formally notified the contractor of
needed changes to the work scope in a timely manner, which contributed to delays in finalizing
performance baselines. As such, the Department was not always able to effectively measure the
contractor's cost performance because it did not have reliable estimates to measure against actual
cost performance.

                           Timely and Supportable Change Proposals

Within 180 days of the contractor starting work, which was October 1, 2008 through March 29,
2009, the Department was to resolve differences between the work scope in the Request for
Proposal that formed the basis for the original contract cost and the work scope identified at the
start of the contract. However, we identified instances where the contractor and the Department
were not timely in addressing changes that totaled approximately $1.1 billion. Specifically:

   •   In January 2009, the Department identified a significant change to the sludge treatment
       project and required the contractor to submit a change proposal to address the new work
       scope. CHPRC experienced significant difficultly in completing a properly supported,
       auditable proposal. In fact, the contractor completed and submitted multiple proposals
       before the Department formally reviewed a $300 million change in September 2010;

   •   In October 2010, nearly 19 months after the Department's goal for resolving differences,
       CHPRC notified the Department that cost estimates that it had prepared for the
       unchanged work scope were materially incorrect. CHPRC indicated that because of
       estimating errors and maturities in information since its original proposal submission, the
       cost of the originally contracted, unchanged work scope for the Plateau Remediation
       Contract would increase by approximately $575 million; and,

   •   Although it became aware of the need for a significant change to a "pump and treat"
       project even before the CHPRC contract became effective, the Department did not issue a
       formal request for the contractor to prepare a change order proposal until June 2010.
       Department officials told us that the delay in issuing the request for a change order
       proposal was because of confusion over what constituted a change for this particular
       portion of the work scope.

As previously noted, the Department was unable to approve substantial contract changes
proposed by CHPRC because the contractor's change proposals did not contain appropriate
documentation and support. The FAR requires that contractors submit detailed data supporting
significant contract cost increases to allow independent auditors to determine whether the
proposed cost increases are acceptable for negotiation, and ultimately for incorporation into
the contract.

Between June and December 2010, CHPRC submitted cost proposals that, upon examination,
were found to be unsupported. Specifically, independent auditors (Defense Contract Audit
Agency and KPMG, LLP) found significant deficiencies during reviews of CHPRC's
contract change proposals. Problems with the proposals contributed to extensive delays in
completing required audits, with some audits lasting more than 6 months. For example:


                                                 2
   •   In June 2010, CHPRC submitted a proposal to resolve a $176 million, material difference
       relating to work scope changes. The independent auditors informed the Department that
       the proposal was inadequate for audit due to significant estimation deficiencies; and,

   •   In September 2010, CHPRC submitted two proposals to resolve $500 million in other
       material differences involving previously described scope changes (sludge treatment and
       pump and treat projects). In April 2011, the independent auditors reported a number of
       significant deficiencies with the proposals, including:

            A sizable portion of proposed costs were deemed unsupported due to CHPRC's
             failure to furnish auditable and verifiable data for material and subcontract cost
             estimates;

            The estimated costs of work to be deleted from the contract were unsupported
             because the change proposal did not contain updated labor hours, material
             quantities, unit costs and other costs; and,

            The actual costs incurred that were attributable to specific proposed contract
             changes were not properly segregated.

After repeatedly reviewing updated proposals submitted by CHPRC, the independent auditors
issued revised audit reports for August and September 2011, which disclosed some of the same
problems noted during audits of the prior change proposal submissions. However, according to a
Department official, many of the deficiencies identified in the revised reports were not as
significant as those identified in prior submissions. Ultimately, the Department negotiated
changes to the contract in March 2012.

                                   FAR Pricing Requirements

According to CHPRC officials, the company was not able to provide adequate supporting
documentation to support cost estimates because of uncertainty about documentation
requirements and the cost of work in out-years of the contract. For example, CHPRC cost
estimators told us that they did not know the extent of documentation required to be submitted
with proposals to be fully compliant with FAR requirements. In addition, CHPRC indicated that
it was difficult to support some estimates because the scope of work to be performed was years
away from starting and potential subcontractors were reluctant to provide quotations.

Despite CHPRC's assertion, we noted that there is a well established process for meeting FAR
proposal requirements. Information on proposal content was readily available from FAR Part
15.4, Contract Pricing. While we recognize the inherent difficulties associated with estimating
out-year costs, contractors must have or obtain financial systems capable of meeting specific
requirements of the FAR to receive a Government contract. The FAR requires contractors to
provide detailed information such as vendor quotes, detailed bids, price analyses, or invoice
prices to support those estimates in proposal submissions of substantial value. The FAR also
requires contractors to provide the most current, accurate and complete information supporting




                                                3
all estimates in proposal submissions, not just the original estimates used for contract award, and
requires that the contractor maintain separate accounts of all incurred costs for work allocable to
the change to properly adjust the contract costs.

                           Measuring Contractor Cost Performance

CHPRC's inability to provide timely and supported contract change proposals made it difficult
for the Department to measure cost performance. The Department requires that contracts align
with cost, scope and schedule performance estimates contained in the PMB. The PMB
estimates, in turn, are used in the contractor's Earned Value Management System (EVMS) to
measure actual work scope progress and cost against PMB estimates. The Department reviewed
and approved the contractor's EVMS in September 2009. The Department uses EVMS data to
measure, among other things, the contractor's cost performance – a comparison of the estimated
cost to the actual cost. Although CHPRC could not provide support for $1.1 billion in contract
change proposals, the Department provisionally approved incorporating the change proposal
estimates in the PMB in order to continue remediation work under the contract. Because the
contract and PMB were not in alignment and all change proposals were not verified through
audit, management could not be assured that the EVMS was producing valid data for assessing
contractor cost performance.

We recognize that it may be impractical to simply stop projects to align the contract and
baseline; however, differences between contract costs and proposed changes to the contract
should be resolved shortly after contract commencement, according to senior Department
procurement officials. This enables the Department to effectively measure contractor project
cost management.

                                       Risk Mitigation

Department officials informed us that they employed various strategies to mitigate adverse
impacts of unsupported cost estimates to the Government. In particular, the Department stated
that it limited approval of the work scope in the contractor's proposed $1.1 billion PMB change
to the execution year, did not pay a fee on the work scope that had not been agreed upon, and
negotiated a relatively lower percentage fee for the changed work scope that had already been
completed. Additionally, management stated that the contract's work authorization process gives
the Department sufficient latitude to properly manage the contract, including contract changes
and fees.

We commend the Department's efforts to mitigate risk by taking prudent steps to manage this
complex contract through a difficult and tumultuous period. However, according to senior
procurement officials, the Department lacked the contractual rigor of CHPRC's cost-plus-
award-fee contract structure because of significant discrepancies between the original contract
cost and subsequent changes in estimated costs over an extended period of time. Essentially, the
actual costs of work performed became the revised estimates that cost performance was
measured against. In fact, officials acknowledged that the contractor's actual costs were a
significant amount of the proposed change in the PMB. Reliable and timely cost estimates are




                                                 4
necessary for the Department to effectively manage its portfolio of contractor-led projects. In
the absence of timely and reliable cost information, management lacks the information necessary
for making decisions regarding tradeoffs in funding among numerous projects.

                               Department Actions & Path Forward

Department management recognized the need to improve contract change administration and
issued multiple policy guidance revisions in 2007, 2008 and 2011, which were aimed to achieve
a disciplined, timely and integrated change control process. These policy revisions reinforced
the need for contract and project changes to be negotiated in a timely manner in order for
projects and contracts to remain aligned. The policy stressed that contractors were to submit
high-quality change order proposals in a timely manner. Additionally, the Department
proactively provided contract change training to its employees across the Environmental
Management complex with the purpose of reducing or eliminating future issues. When fully
implemented, these changes should help address the problems identified in this report.

In May 2012, the Department notified us that it had modified the contract and approved
CHPRC's PMB in a manner that aligns the contract and the PMB with each other. While this is
an important achievement, we note that this occurred over 3 years after the start of the contract.
As previously noted, the Department was unable to adequately consider cost performance in
managing the contract during the 3-year period. Accordingly, we have made several
suggestions.

SUGGESTED ACTIONS

The intent of this report is to assist management with its continuing efforts to enhance
contract administration by improving the cost performance evaluation of the contractor. We
noted that the issues described in this report are not unique to the Plateau Remediation
Contract. Other Office of Inspector General audits of Environmental Management projects
have identified similar issues with the timely processing of contract changes and the
management of performance baselines (see Attachment 2). As a result, we suggest that the
Deputy Assistant Secretary for Acquisition & Project Management, Office of Environmental
Management work with environmental cleanup site offices to ensure that:

    1.   Contractors fully support cost change proposals in accordance with the FAR, to include
         detailed cost elements that can be audited;

    2.   PMBs are properly established and formally approved in a timely manner and reflect
         material difference changes to the contract that occur between the date of the request
         for proposal and the contract start date; and,

    3.   Federal contract management officials promptly and formally notify contractors of
         required scope changes to facilitate the timely preparation of contract change proposals.




                                                 5
MANAGEMENT REACTION AND AUDITOR RESPONSE

In response to a draft version of this report, the Office of Environmental Management disagreed
with several of the conclusions and observations contained in the body of the draft report;
however, management concurred with the recommendations. Management stated that the audit
report accurately recognized the difficulty that the Department and CHPRC experienced in
submitting cost estimates for contract modifications in a timely manner that met FAR
requirements. Management's key comments and our responses are summarized in the following
paragraphs.

Management disagreed with the suggestion that the Department may have improperly rewarded
CHPRC for poor performance and stated the Department had not overpaid fees to CHPRC or
paid fees on cost overruns. Management pointed out that it had implemented a number of
mitigation measures to address the fee risk. We modified the language in the report, as discussed
below, to recognize management's mitigation measures and to make it absolutely clear that we
did not specifically identify any improper award of fees.

Management stated that most of the audit's recommendations have already been implemented
through prior corrective actions and that the report no longer reflects the current state of
contract administration, which now has a more disciplined change management process. We
modified the report to acknowledge certain corrective actions taken by management.
Nonetheless, we believe additional actions are both necessary and prudent. Our suggestions are
not only intended to assist the Department with its management of the CHPRC contract, but also
with its portfolio of contracts. Specifically, our suggestions are intended to encourage efforts to
ensure that changes to the work scope are sufficiently detailed by the contractor to allow the
Department to manage the contract in a manner that it can accurately track progress, work
outcomes as well as cost performance.

Management disagreed with the report's assertion that the Department could not accurately
assess contractor performance. Management also asserted that the draft report inaccurately
stated that the contractor EVMS data is used by management to measure contractor performance
in determining fee awards, which are based on objective completion of specific activities
defined in the contract, such as demolition of a building or excavation of a waste site. Also,
under fee penalty clauses in the contract, poor cost performance, as indicated by EVMS, can result in
reductions of earned fees. We modified the report to reflect management's comments on the EVMS.
We also agree that fee payments are not made based on EVMS, and that poor cost performance, as
indicated by EVMS, can result in reductions of earned fees. However, we noted that if the contractor
performs substantial work scope that has yet to be negotiated into the contract, as was the case under the
CHPRC contract, the Department is then unable to fully employ the EVMS cost performance metric.
As a result, poor cost performance will not be disclosed for work that could be used by the Department
in deciding to exercise the fee penalty clauses in the contract.

Management stated the report did not recognize the most significant risk mitigation tool
inherent within the CHPRC contract structure, the work scope authorization clause, which
provided the framework for the alignment of the contract and the baseline that occurred in
March 2012. This clause allows the Department to adjust contractor authorized work scope to



                                                    6
fit the available budget. We accepted management's point and expanded the report to
acknowledge this risk mitigation tool. We agree that management can limit total funds expended
by the contractor using the work scope authorization clause, but noted that this is a reactive
rather than proactive measure. It was clear to us, especially in a contract of this size and scope,
that the preferable contract management strategy is to start with valid cost estimates for agreed-
upon work and measure against that continuously over the life of the contract. Management
finally aligned the contract and baseline in March 2012, and we have so acknowledged in the
report. However, it is telling to note that this was 3 years past the 180 day guideline. While
management used the work scope authorization clause to achieve this milestone, we believe the
extensive length of time it took is indicative of a troubling weakness in the contract
administration process.

Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Administrator, National Nuclear Security Administration
      Chief of Staff
      Senior Advisor for Environmental Management
      Manager, Richland Operations Office




                                                7
                                                                                    Attachment 1


                       OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The audit objective was to determine whether the Department of Energy (Department) had
adequately managed changes to the CH2M HILL Plateau Remediation (CHPRC) contract.

SCOPE

We performed the audit between January 2011 and May 2012, at the Richland Operations Office
(Richland) in Richland, Washington. The audit scope was limited to a review of Plateau
Remediation Contract activities.

METHODOLOGY

To accomplish the audit objective, we:

   •   Researched and reviewed Federal regulations and Department policies and procedures;

   •   Reviewed CHPRC contract requirements;

   •   Obtained and reviewed audits of CHPRC proposals performed by the Defense Contract
       Audit Agency and KPMG, LLP;

   •   Obtained and reviewed Department memorandums and guidance on contract change
       order administration;

   •   Reviewed CHPRC's performance measurement baselines; and,

   •   Interviewed Department officials from Richland, Office of Environmental Management,
       and the Office of Procurement and Assistance Management regarding problems with
       administering the CHPRC.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Accordingly, we assessed
significant internal controls and compliance with laws and regulations necessary to satisfy the
audit objective. We also assessed the Department's implementation of the Government
Modernization Act of 2010 and determined that it had established performance measures related
to the audit objective. Because our review was limited, it would not necessarily have disclosed
all internal control deficiencies that may have existed at the time of our audit. We did not rely
upon computer-processed data to accomplish our audit objective.

An exit conference was held with Department officials on December 5, 2012.

                                                8
                                                                                 Attachment 2


                                   PRIOR REPORTS


•   Report on The Department of Energy's K-25 Building Decontamination and
    Decommissioning Project, (IG-0854, July 2011). Cost and schedule estimates used to
    measure performance in the contractor's Earned Value Management System (EVMS)
    were not based on an independent Government estimate and had not been developed
    from the "bottom-up" as required. In addition, the Department of Energy (Department)
    did not perform timely analyses to evaluate outstanding issues described in Request for
    Equitable Adjustments submitted by contractor nor fully update its baseline for
    completing the K-25 project. The report made specific recommendations to improve
    timely baseline management and other issues.

•   Report on Audit of Moab Mill Tailings Cleanup Project, (OAS-RA-L-10-03, April,
    2010). The audit disclosed that contract baseline estimates were not completely revised
    to reflect reduced or redesigned work scope on the project. The problems were attributed
    to inadequate tracking and documentation of original work scope and the changes that
    occurred over time. The report recommended that project management revise the project
    baseline to correct the problems identified in the report, and ensure that baseline changes
    are not made retroactively based on actual costs.

•   Report on The Disposition of Uranium-233 at Oak Ridge National Laboratory, (IG-0834,
    February 2010). The audit found that the cost baseline that was approved by the
    Department relied on inaccurate assumptions and was likely to be unreliable. The
    Department's Office of Environmental Management had not ensured that the contract was
    consistent with the new work scope. Delays in completing the design and uncertainty
    about the eventual cost of the project were caused, in part, by inconsistent Federal
    leadership resulting in inadequate contractor oversight. The report made
    recommendations to improve project leadership and baseline management.




                                             9
                                                                    IG Report No. OAS-L-13-03

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

    1. What additional background information about the selection, scheduling, scope, or
       procedures of the audit or inspection would have been helpful to the reader in
       understanding this report?

    2. What additional information related to findings and recommendations could have been
       included in the report to assist management in implementing corrective actions?

    3. What format, stylistic, or organizational changes might have made this report's overall
       message more clear to the reader?

    4. What additional actions could the Office of Inspector General have taken on the issues
       discussed in this report that would have been helpful?

    5. Please include your name and telephone number so that we may contact you should we
       have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
